         OFFICE OF INSPECTOR GENERAL 





                                         Catalyst for Improving the Environment


Evaluation Report




       Continued EPA Leadership Will Support
       State Needs for Information and
       Guidance on RCRA Financial Assurance

       Report No. 2005-P-00026


       September 26, 2005
Report Contributors:        Steve Hanna
                            Martha Chang
                            Jayne Lilienfeld-Jones




Abbreviations

ASTSWMO Association of State and Territorial Solid Waste Management Officials
EFAB    Environmental Financial Advisory Board
EPA     U.S. Environmental Protection Agency
OIG     Office of Inspector General
RCRA    Resource Conservation and Recovery Act
TSDF    Treatment, Storage, and Disposal Facility




Cover photo:    A Class I Landfill in post-closure 

                (Courtesy California Department of Toxic Substances Control) 

                        U.S. Environmental Protection Agency                                             2005-P-00026

                        Office of Inspector General                                                 September 26, 2005




                        At a Glance 

                                                                                 Catalyst for Improving the Environment


Why We Did This Review              Continued EPA Leadership Will Support State Needs for 

                                    Information and Guidance on RCRA Financial Assurance

This report addresses efforts
of the Environmental                 What We Found
Protection Agency (EPA) to
implement financial assurance       EPA does not have adequate data on financial assurance at hazardous waste
requirements at hazardous           treatment, storage, and disposal facilities regulated under RCRA. Unlike many
waste facilities regulated          other types of permit information, basic financial assurance information has not
under the Resource                  been reported into EPA’s national database. This hampers efforts to evaluate the
Conservation and Recovery           effectiveness of current financial assurance mechanisms and make adjustments to
Act (RCRA). Regulators have         ensure facilities have sufficient funds for closure and post-closure costs.
expressed concern that some
of the methods used to ensure       State and EPA financial assurance officials need to improve communication
that facilities have sufficient     mechanisms to share financial assurance information. EPA also needs to update
funds to cover facility closure     guidance, particularly for insurance, and needs to uniformly oversee State
costs are limited, may not be       programs. Such actions will improve the ability of States to make informed
effective, and may financially      decisions on the adequacy of financial assurance mechanisms. Further, States and
impact EPA and States.              EPA staff have expressed concern with aspects of the financial test and other
                                    financial assurance mechanisms. Although States and regions expressed concerns
Background                          about financial assurance, we noted few examples in which failures occurred.
RCRA hazardous waste                EPA is taking positive steps to address various issues. The Office of Enforcement
facilities are required to          and Compliance Assurance formally identified financial assurance as a program
provide assurance that they         priority. EPA is incorporating some necessary financial assurance data elements
have sufficient financial assets    into its information system, and recently implemented a successful financial
to cover closure costs for all      assurance training program for States. EPA has asked its Environmental Financial
permitted and interim status        Advisory Board to study and make recommendations on financial assurance issues
units as well as post-closure       of concern. Our work supports EPA’s efforts and identifies additional
costs for all land-based units.     improvement opportunities.
EPA has authorized all but
two of the States (Iowa and          What We Recommend
Alaska) to implement these
requirements.                       We recommend that EPA implement financial assurance data elements after
For further information,
                                    ensuring the information needs will be satisfied by these elements; actively engage
contact our Office of               States and regions in developing communication mechanisms and guidance;
Congressional and Public            continue support of financial assurance training; develop mechanisms to ensure
Liaison at (202) 566-2391.          adequate EPA regional oversight of State programs; and clarify goals, milestones,
                                    and timelines for addressing financial assurance modifications. EPA generally
To view the full report,
click on the following link:        agreed with our recommendations, and made suggestions that we incorporated into
                                    the report. The Agency’s full response to the recommendations is in Appendix A.
www.epa.gov/oig/reports/2005/
20050926-2005-P-00026.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, DC 20460

                                                                                  OFFICE OF
                                                                             INSPECTOR GENERAL




                                       September 26, 2005

MEMORANDUM

SUBJECT:       Continued EPA Leadership Will Support State Needs for Information and
               Guidance on RCRA Financial Assurance
               Report No. 2005-P-00026

FROM:          Carolyn Copper /s/
               Director for Program Evaluation
               Hazardous Waste Issues

TO:            Thomas P. Dunne
               Deputy Assistant Administrator
               Office of Solid Waste and Emergency Response


This is the final report on our evaluation of the effectiveness of EPA’s hazardous waste financial
assurance requirements conducted by the Office of Inspector General (OIG) of the U.S.
Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG identified and corrective actions the OIG recommends. This report represents
the opinion of the OIG and the findings in this report do not necessarily represent the final EPA
position. Final determination on matters in the report will be made by EPA managers in
accordance with established resolution procedures. The report includes EPA’s full response to
the recommendations in Appendix A; we did not include the attachment providing specific
comments.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 days of the date of this report. You should include a corrective actions plan for
agreed upon actions, including milestone dates. We have no objections to the further release of
this report to the public.

If you or you staff have questions, I can be reached at (202) 566-0829, and Steve Hanna,
Assignment Manager, can be reached at (415) 947-4527.
                                Table of Contents 

At a Glance

Chapters

  1   Introduction ...........................................................................................................      1     


              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Scope and Methodology.................................................................................                4         


  2   Limited Financial Assurance Data Impacts Program Management .................                                                 5     


              EPA and States Have Limited Data on Financial Assurance .........................                                     5

              EPA’s Planned Actions May Address Some Data Limitations........................                                       7

              Conclusions ....................................................................................................      8         

              Recommendation ...........................................................................................            8         

              Agency Comment and OIG Evaluation ..........................................................                          8


  3   Improved Communication, Guidance, and Oversight Needed .........................                                              9     


              Better Communication Mechanisms Needed .................................................                              9         

              Formal Guidance Remains a Concern ...........................................................                        10 

              EPA Oversight of State Programs Has Missed Problems ..............................                                   11 

              Recent Training Successful, but Increased Support for States Needed ........                                         11 

              Conclusions....................................................................................................      12 

              Recommendations .........................................................................................            12 

              Agency Comment and OIG Evaluation ..........................................................                         12 


  4   Several Indicators Show Need for Financial Assurance Modifications ...........                                               13 


              EPA Has Plans and is Acting to Address Issues............................................                            13 

              States Have Taken Actions to Implement Additional Restrictions..................                                     14 

              States Expressed Concerns with Financial Test and Other Mechanisms ......                                            15 

              Industry Representatives Believe Mechanisms Adequate .............................                                   17 

              Conclusions....................................................................................................      17 

              Recommendation ...........................................................................................           17 

              Agency Comment and OIG Evaluation ..........................................................                         17 



Appendices
  A   Agency Response to Draft Report ......................................................................                       18 


  B   Distribution ...........................................................................................................     21 

                                 Chapter 1
                                 Introduction
Purpose
          This report focuses on efforts of the Environmental Protection Agency (EPA) to
          address financial assurance concerns associated with hazardous waste treatment,
          storage, and disposal facilities regulated under Subtitle C of the Resource
          Conservation and Recovery Act (RCRA). Our specific questions were:

          •	 What information exists on the effectiveness of the existing RCRA Subtitle C
             financial assurance requirements?

          •	 What assistance is provided to States and regions by EPA’s Office of Solid
             Waste to ensure adequate review of financial assurance requirements?

          •	 Should existing financial assurance requirements be modified?

Background
          EPA implemented financial assurance regulations under RCRA to ensure that
          facilities will have sufficient funds to properly close their permitted and interim
          status units and maintain the site for the duration of post-closure responsibility.
          EPA implemented these regulations to prevent default to Federal funds in the
          event that RCRA facilities are unable or unwilling to cover closure and post-
          closure costs. Financial assurance is required for major regulated entities in all
          three of the RCRA programs:

          •	 RCRA Subtitle C: Hazardous waste treatment, storage, and disposal
             facilities (TSDFs). Interim status TSDFs, which are allowed to continue
             operating if their activities predated a new RCRA statute or regulation, are
             also required to have financial assurance mechanisms.
          •	 RCRA Subtitle D: Municipal solid waste facilities.
          •	 RCRA Subtitle I: Underground storage tanks.

          EPA has authorized all but two of the States (Iowa and Alaska) to implement the
          base RCRA Subtitle C program. TSDFs are required to demonstrate financial
          assurance for closure costs, post-closure costs, and third-party liability insurance
          coverage for sudden and non-sudden accidental contamination. Financial
          assurance requirements do not apply to hazardous waste generators and State or
          Federally owned and operated facilities.




                                          1

Closure and post-closure costs are components of the formal RCRA permit.
Estimates must be updated annually to account for facility expansion as well as
inflation. Software has been developed by EPA to estimate closure and post-
closure costs.

The allowable RCRA Subtitle C financial assurance mechanisms are listed in
Table 1.1.

             Table 1.1 - Financial Assurance Closure and Post-Closure Mechanisms
 Financial test      A test that evaluates the assets and liabilities of a company to determine
                     whether it will have resources available to cover closure/post-closure costs.
 Corporate           The guarantee of closure/post-closure costs by an affiliated corporation, such
 guarantee           as a parent company, another firm under the same parent company, or a firm
                     with a substantial business relationship with the RCRA facility.
 Trust fund          Money set aside in a trust, specifically allocated for closure and post-closure
                     expenditures.
 Letter of credit    Credit issued by a financial institution that guarantees payment of the RCRA
                     facility’s obligations up to a specified amount.
 Surety bond         Guarantees issued by a surety company that specified obligations will be
                     met. The bonds are either in the form of payment (payment bonds) or
                     commitment to comply with closure, post-closure, and liability requirements
                     (performance bonds).
 Insurance           An insurance policy for the value of closure/post-closure costs. The policy
                     must guarantee that funds up to the face amount of the policy will be
                     available for payment of closure or post-closure care upon the direction of the
                     permitting authority.
 Combinations        Trust funds, letters of credit, surety bonds guaranteeing payment, and
                     insurance can be combined for a facility if together their value is at least
                     equal to the closure or post-closure cost estimate. Surety bonds
                     guaranteeing performance, financial tests, and corporate guarantees cannot
                     be combined.



Financial Assurance Concerns

The States and regions we interviewed expressed consistent concerns with aspects
of financial assurance. They believed these concerns would be best addressed at
the national level by EPA, including a rulemaking process that would revise the
existing financial assurance regulations. Their concerns included:

    •    Lack of national data on companies and financial assurance providers.
    •    Lack of an effective mechanism for communicating financial assurance
         concerns to appropriate State and regional staff in a timely manner.
    •	   Insufficient guidance, especially on insurance.
    •	   Allowance of captive insurance as a mechanism.
    •	   Conflicts between the current financial test and generally-accepted
         accounting principles.
    •	   Lack of regulations on corrective action financial assurance.



                                     2

                  The Association of State and Territorial Solid Waste Management Officials
                  (ASTSWMO) articulated these State concerns, and in 2003 formed an internal
                  group to address State problems with financial assurance methods. Their draft
                  paper, completed in 2004, was originally distributed at a meeting of EPA’s
                  Environmental Financial Advisory Board, a Federally chartered advisory group
                  that provides advice to EPA. The paper identifies the following issues:

                  •	 Financial Test/Corporate Guarantee: Various States are of the opinion that
                     EPA should reconsider the financial test and corporate guarantee as financial
                     assurance mechanisms, in light of recent financial failures of several large
                     corporations.
                  •	 Insurance: States cited numerous problems, including the difficulty of
                     getting claims paid and lack of State awareness of the true coverage provided
                     by the policy. The lack of standardized language for policies was a major
                     complaint. The lack of independence associated with “captive” insurance and
                     “fronting” arrangements were also of concern.1
                  •	 Corrective action: Many States want EPA to finalize corrective action
                     financial assurance; cost estimation guidance is needed.

                  The ASTSWMO paper recommends the following improvements:

                  1.	 Ensure adequate cost estimates for closure and post-closure are complete prior
                      to permit issuance.
                  2.	 Provide financial assurance in corrective action prior to remedy selection.
                  3.	 Incorporate financial assurance information into the RCRAInfo database.
                  4.	 Investigate complex insurance issues and review State needs for additional
                      guidance.
                  5.	 Update the Financial Assurance guidance.

                  Prior Evaluation

                  In March 2001, EPA OIG published a report entitled “RCRA Financial Assurance
                  for Closure and Post-Closure.” EPA requested the evaluation to determine
                  whether RCRA financial assurance requirements and the implementation of those
                  requirements provided adequate funding for facility closure and post-closure
                  activities. This evaluation included both RCRA Subtitle C and D facilities, and
                  included a detailed analysis of financial assurance data from multiple States. The
                  report recommendations and their implementation status are shown in Table 1.2.




1
 “Pure Captive” insurance is insurance issued by a wholly-owned subsidiary of the company being insured.
Regarding “fronting” arrangements, if an insurance company wants to issue a policy outside the State in which it has
been licensed, it can arrange for a State-licensed insurer to write the policy on its letterhead; the actual policy is
underwritten by the first company but “fronted” by the carrier that can do business within the State.



                                                        3

                         Table 1.2 - 2001 EPA OIG Report Recommendations and Status
                                                                                      Agency    Action
          Recommendation                                                             Response   Taken?
          Develop specific financial assurance guidance for insurance.                Agree      No
          Improve existing financial assurance training material.                     Agree      Yes
          Post financial assurance information on internal bulletin boards.           Agree      No
          Develop criteria to establish appropriate post-closure care time frames.    Agree      No
          Provide cost estimation software to States.                                 Agree      Yes




Scope and Methodology
         We conducted our program evaluation field work from July 2004 through March
         2005 in accordance with Government Auditing Standards, issued by the
         Comptroller General of the United States. We reviewed management controls
         related to EPA oversight of State financial assurance mechanisms. The lack of
         Federal financial assurance data prevented a substantive review of these controls
         and of data quality. Identification of problem facilities was provided by
         interviewees, and details on the nature and scope of the problems were obtained
         from the State or region with primary regulatory responsibility at each facility.
         We evaluated data from four State databases by compiling and summarizing data
         supplied by those States.

         To achieve our objectives, we interviewed EPA staff from the Office of Solid
         Waste within the Office of Solid Waste and Emergency Response, and staff from
         the Office of Enforcement and Compliance Assurance. We also interviewed staff
         in EPA Regions 4, 6, 8, 9, and 10, to obtain a regional perspective on the issues.

         For external stakeholders, we interviewed officials in six States – California,
         Colorado, Connecticut, New York, Texas, and Washington. States were selected
         to include programs with expertise in financial assurance. We also interviewed
         staff at ASTSWMO, an organization of State environmental officials. Further, we
         interviewed industry representatives from the American Chemistry Council,
         Environmental Technology Council, and Waste Management Incorporated, based
         on their known interest or involvement in financial assurance.

         To answer our evaluation questions, we asked regions and States a series of
         structured questions specific to regulatory issues and EPA’s management of the
         financial assurance program. We questioned other stakeholders about financial
         assurance in general, including their opinions on financial assurance mechanisms.
         We reviewed numerous documents, Web sites, and publications. We obtained
         State program information from State and regional financial assurance staff.




                                               4

                                Chapter 2
       Limited Financial Assurance Data Impacts
                 Program Management
          EPA does not have adequate data at the State or national level to determine the
          effectiveness of EPA efforts regarding financial assurance for TSDFs regulated by
          RCRA Subtitle C. Unlike many other types of permit information, basic financial
          assurance information has not been reported into EPA’s national database
          (RCRAInfo). This hampers efforts to evaluate the effectiveness of current
          financial assurance mechanisms and make adjustments where needed to ensure
          facilities have sufficient funds for closure and post-closure costs. EPA is
          addressing this issue by identifying appropriate financial assurance data elements
          for incorporation into its national database. Although States and regions
          expressed concerns about financial assurance, we noted few examples in which
          failures occurred.

EPA and States Have Limited Data on Financial Assurance
          Financial Assurance Information Not Routinely Collected

          Our efforts to determine the nature and scope of financial assurance problems
          have been hampered by the lack of essential data in RCRAInfo, the Office of
          Solid Waste’s primary information system. Although financial assurance
          mechanisms have been required for over 20 years, no history exists on
          mechanisms used, company or corporate problems, financial assurance provider
          problems, or cost estimate accuracy. According to RCRA regulations, closure
          and post-closure estimates are required to be submitted in the biennial hazardous
          waste report. This report is required of all TSDFs, but EPA apparently never
          included the financial assurance information in its biennial report forms.

          Some States developed financial assurance databases to support their programs.
          However, these databases do not contain the same information in the same
          formats, and are not in use in all States. This prevents the development of a
          national perspective on financial assurance based on the data in these systems.
          Additionally, States may include non-RCRA facilities in their data systems, which
          can further complicate the use of State data.

          We obtained information available from four State systems, covering over
          470 facilities, which may include some non-RCRA TSDFs. Analysis of
          information from these State databases indicates that all types of financial
          assurance mechanisms are used (see Figure 2.1). The financial test and corporate
          guarantee, which rely on a company’s financial strength to pay for closure and
          post-closure, occur with the highest frequency (40 percent of the facilities).


                                         5

Figure 2.1 - State Financial Assurance Mechanisms
(Source: OIG analysis of data from CA, CT, TX, and WA)

                                     Trust Fund
                Surety Bond             16%
                    5%




 Letter of Credit
      18%



                                                            Financial
                                                         Test/Corporate
                                                           Guarantee
                                                              40%



                    Insurance
                       21%




Some Information on Problem Facilities Indicates Problems
Not Due to Failure of Financial Assurance Mechanisms or Oversight

Due to a lack of comprehensive data on the effectiveness of the RCRA financial
assurance program, we asked all interviewees to identify RCRA facilities with
potential financial assurance “problems” to determine whether case studies could
provide additional insight into any problems or failures. The interviewees
identified 21 facilities, including TSDFs as well as facilities never formally
regulated as TSDFs, such as generators and recyclers.

Analysis of the problem facilities indicated that financial assurance for closure
and post-closure of permitted and interim status units generally were not the
primary issues of concern. Instead, these facilities appeared to have significant
remediation costs beyond financial assurance coverage for closure and post-
closure. Of the 21 problem facilities, only 3 had financial assurance as the
primary problem. Nine had no unresolved financial assurance problems, and the
other nine had significant remediation costs not covered by financial assurance for
closure and post-closure. The facilities subject to remediation included generators
and recyclers as well as TSDFs. Specific issues for the three facilities with
financial assurance problems were:

•	 Bankruptcies: All three facilities were abandoned, insolvent, or filed for
   bankruptcy.
•	 Cost estimation: Two facilities had underestimated closure and/or post-
   closure costs.
•	 Insurance transition: One facility presented a problem in continuing the use
   of insurance upon the prospective sale of the facility.

Two other companies out of the 21, found to have no financial assurance issues,
still illustrate one State’s concern with existing Federal financial assurance
requirements. The two companies financially assured their facilities with the



                                          6

         financial test but later entered or nearly entered into bankruptcy. The affected
         State regulatory agency successfully obtained alternative instruments from the
         companies. Although the companies fiscally recovered, the State is still
         concerned that it will not have the flexibility to deny the financial test because
         Federal regulations do not provide any justification for such a denial despite the
         companies’ past financial failures.

EPA’s Planned Actions May Address Some Data Limitations
         EPA has proposed additional financial assurance data elements for RCRAInfo in
         two areas – “coverage” and “financial assurance instrument” – and these proposed
         elements have been accepted by States and EPA. Coverage data elements include
         the type of financial assurance required (closure, post-closure, corrective action,
         or liability), start/end dates of financial assurance requirements, cost estimates,
         and environmental obligations of the owner/operator. Financial assurance data
         elements include the mechanism type, identifier, start/renewal dates, provider, and
         face value. The majority of these data elements are mandatory.

         These planned actions represent significant progress in developing financial
         assurance data at a national level. States and regions interviewed agreed the
         proposed data elements were adequate and should be mandatory. One additional
         step EPA needs to take is to clearly define the desired financial assurance outputs
         from RCRAInfo prior to defining the data elements. This is a critical first step in
         systems analysis, and provides assurance that the information collected will
         support programmatic needs. Examples of additional factors that need to be
         considered prior to designing the system are:

         •	 Tickler reports - “Tickler” reports are typically used to provide information
            on pending events or milestones. An example of a tickler report for financial
            assurance would be a list of facilities whose mechanisms are scheduled to
            expire or whose annual inflation update is due in the next month. If tickler
            reports are required, they must be programmed and appropriate data must be
            defined to generate the reports.
         •	 Financial Assurance Provider links - If a provider experiences financial
            problems, links to all facilities and States using the provider would help
            inform the regulators. Providers must be capable of being linked by a unique
            identifier other than name, to provide accurate computer matching.
         •	 Company links - If the system is to identify facilities within the same
            company, a parent company identifier (such as a Dun and Bradstreet number)
            is needed, since names typically do not provide accurate computer matching.
         •	 Historical trends - Stakeholders believe trend shifts in the financial assurance
            mechanism market can anticipate potential market-wide mechanism failures.
            If historical analysis is used, the system must be designed to store all prior
            entries instead of just replacing the data and storing only the current entry.
         •	 Cost Estimate Accuracy - One concern consistently expressed by States and
            regions was the accuracy of the projected versus actual closure and post-


                                         7

            closure costs. Actual cost data are not usually available, as the TSDF is not
            required to report the costs. However, this information sometimes is available
            and should be considered as data elements when that is the case.
         •	 Annual Reports - To provide effective regional oversight and ensure entry of
            mandatory data elements, annual reports should be defined to identify
            apparent discrepancies in program activity or data entry. Examples would be
            reports on facilities with expired mechanisms or overdue annual updates.
            These reports should be defined prior to system modifications to ensure the
            necessary data elements are collected and the report capability developed.
         •	 Financial test data verification - Companies using the financial test are
            required to include a list of all TSDFs covered by the test, irrespective of their
            State location, to allow verification that sufficient company resources exist to
            cover the requirements for all facilities. However, at least one State has
            discovered that the same list of TSDFs may not be reported to the appropriate
            States, and cross-State comparisons could prevent this inconsistency.

Conclusions
         Despite ongoing concerns from States and regions about financial assurance
         issues, the problems cannot be readily defined because of the lack of uniform
         national data. Consequently, EPA lacks complete information to manage
         financial assurance issues and activities at the national level. EPA’s proposed
         financial assurance data elements will help address the fundamental requirements
         of a national system and, with improvements, add value to managing this
         information. Prior definition of the information products needed from the new
         system will help ensure that the modifications provide the tools necessary to
         manage financial assurance activities and policies, and monitor performance.

Recommendation
         To ensure that data are collected to provide tools and information necessary to
         manage and monitor financial assurance activities, we recommend that the
         Deputy Assistant Administrator for Solid Waste and Emergency Response:

         2.1 	   Incorporate the planned modifications to RCRAInfo to improve financial
                 assurance data collected at the national level, and require a clear definition
                 of outputs and features of the system prior to final definition of the
                 required data elements. This could include such additional planned
                 actions as tickler reports and improved financial assurance provider links.

Agency Comment and OIG Evaluation
         EPA agreed with our recommendation, and indicated that financial assurance data
         elements will be incorporated into the next upgrade of RCRAInfo. We consider
         EPA’s actions to be appropriate. The Agency’s full response to the
         recommendation is in Appendix A.


                                         8

                               Chapter 3
         Improved Communication, Guidance,
               and Oversight Needed
         State and EPA financial assurance staff currently do not have adequate
         communications mechanisms in place to share financial assurance information.
         EPA has not provided States updated guidance, especially on insurance, despite
         requests and recommendations for such guidance. EPA regions do not uniformly
         oversee State programs, as indicated by State allowance of inappropriate or
         questionable mechanisms. The inadequate communication, guidance, and
         oversight may affect the ability of States to make informed decisions on the
         adequacy of financial assurance mechanisms, and contribute to the State
         acceptance of inadequate or inappropriate mechanisms. Recent EPA-sponsored
         training for States and regions on financial assurance should help support some
         States’ needs for technical information and guidance.

Better Communication Mechanisms Needed
         State financial assurance concerns extend beyond each State’s boundaries. For
         example, the failure of a single company that provides financial assurance to
         TSDFs in multiple States would impact programs in each of those States. Good
         communication between all States and regions would allow sharing and learning
         about financial assurance information, concerns, and pending problems. The
         2001 OIG report had recommended the development of an electronic bulletin
         board to foster this level of communication, and we found that States and regions
         generally supported the implementation of a Web site for their use.

         EPA has not developed a master list of State and regional financial assurance
         contacts, and therefore has no apparent ability to directly share information with
         these contacts. EPA indicated it typically communicates with State
         environmental executives, but this mechanism may not provide the most efficient
         notification to financial assurance staff on time-sensitive issues, such as pending
         financial assurance provider failures.

         During the past year, EPA has held quarterly conference calls with the States to
         discuss financial assurance issues. These calls represent an important step in
         developing contacts and sharing information nationally. To date, 37 States have
         participated in these calls, indicating a high level of State interest. EPA’s pending
         revisions to RCRAInfo should also indirectly contribute to enhancing cross-State
         and regional communications of key financial assurance facts.




                                         9

Formal Guidance Remains a Concern
         EPA issued formal guidance on financial assurance in 1982 to assist States and
         TSDFs in obtaining adequate closure and post-closure coverage. However, the
         guidance has not been formally updated since then, and States and regions are
         generally unaware of the existence of the 1982 EPA guidance. Updated guidance
         on financial assurance has been requested by States for years, and was
         recommended by the 2001 OIG report and the ASTSWMO report, as discussed
         previously. States are especially concerned about guidance in the area of
         insurance, which was also mentioned in both reports. Concerns about insurance
         include the following:

         •	 Standardized policy - States and regions expressed concerns about complex
            insurance policy language and indicated a need for standardized, clear, and
            concise language. Problems may arise if regulators do not have the necessary
            expertise to adequately interpret a policy. However, development of
            standardized policy language is complicated by the existing regulation of
            policies on a State-by-State basis by State insurance commissions.
         •	 Certificate versus insurance policy - TSDFs using insurance for financial
            assurance are required to submit a certificate of insurance; the detailed
            insurance policy is not required. However, the certificate by itself does not
            guarantee the policy meets financial assurance requirements. For example,
            one State reported it received a certificate that identified coverage for post-
            closure and corrective action, yet the policy was only written for post-closure.
         •	 Implementation problems - The regulatory agency’s ability to use funds may
            be limited by an insurance company’s procedures and payment schedule, such
            as reimbursing the regulator for cleanup costs instead of providing direct
            access to the funds. States have also expressed concern that drawing on an
            insurance policy may require litigation, especially if the facility has been
            abandoned or the company is in bankruptcy.
         •	 Insurance cancellation - The insurance company is required to notify the
            regulator prior to cancellation of the policy, but the company is not required to
            provide notification if it becomes insolvent or its license is suspended. States
            have reported cases in which a policy was canceled by the insurance
            company, leaving the TSDF without any financial assurance coverage and in
            violation of RCRA requirements. In these cases, prompt action by States is
            required, as the insurance company is obligated to provide 120 days notice
            prior to cancellation of the policy. The State must act to secure the funds
            within that time frame if the facility has been unable to find an alternative
            financial assurance mechanism, to guarantee the availability of funds to cover
            closure and/or post-closure costs.

         The development of guidance documents does not need to be solely the
         responsibility of the Office of Solid Waste, although it should play a central role.
         Some States and regions have considerable expertise in financial assurance, and
         three EPA regions have staff positions dedicated to support of financial assurance.


                                        10

          Further, some States have developed checklists to assist staff in evaluating various
          financial assurance mechanisms.

EPA Oversight of State Programs Has Missed Problems
          States have allowed the use of financial assurance mechanisms not explicitly
          allowed by Federal regulations. This suggests problems with EPA oversight and
          also supports the need for additional guidance. States also do not always follow
          prudent fiscal practices in the implementation of the mechanisms. Examples of
          unallowable mechanisms or imprudent fiscal practices include:

             •	   Having State financial assurance regulations less stringent than RCRA.
             •	   Allowing the use of certificates of deposit.
             •	   Allowing the use of cash payments.
             •	   Allowing the use of Treasury notes.
             •	   Allowing the use of municipal bonds.
             •	   Allowing trust funds to be funded with stock, including stock of the
                  regulated company.
             •	   Allowing trust funds to be funded with real estate.
             •	   Allowing financial tests for a company with less than 90 percent of its
                  total assets in the United States. Regulations require a company using the
                  financial test to have at least 90 percent of its total assets in the United
                  States.
             •	   Not storing original letters of credit in fireproof safes.
             •	   Not regularly updating cost estimates and mechanism values.

Recent Training Successful, but Increased Support for States Needed
          EPA recently provided four week-long training sessions on RCRA Subtitle C
          Financial Assurance for States and regions. The training has been offered at
          varying locations at no cost, with participants responsible only for their travel
          costs. Cost estimation training has been given in four regions and is planned for
          the remaining regions. Both the need and success of the training are indicated by
          the high level of participation by States and regions. Representatives from all
          EPA regions and over half the States have attended one of the three training
          sessions provided.

          State participation in training could be expanded if EPA provided travel funds for
          States in need. This could also be achieved by scheduling training in conjunction
          with conferences, such as ASTSWMO or EPA RCRA conferences, for which
          travel funds may already be available. Another option is to provide shortened
          courses targeted to specific States that have been unable to attend the longer
          course. In recent months, the Office of Civil Enforcement has provided mini-
          training courses on financial mechanisms in several States and regions.




                                         11

Conclusions
         States have expressed the need for better communication and guidance on RCRA
         financial assurance. Some States are implementing invalid financial assurance
         mechanisms, which supports the needs for better guidance and communication
         along with improved EPA oversight of State programs. Continued support for
         EPA’s RCRA financial assurance training will help address some of the needs.
         However, training is a one-time event. To effectively manage financial assurance
         responsibilities over the long-term, EPA needs to establish better and consistent
         communications between and among States and regions and consistently provide
         current and relevant guidance.

Recommendations
         We recommend that the Deputy Assistant Administrator for Solid Waste and
         Emergency Response:

         3.1 	    Establish effective mechanisms of communication with State and regional
                  financial assurance staff. This should include development and
                  maintenance of master lists of financial assurance contacts, as well as
                  implementation of an automated mechanism for information sharing and
                  communication. State and regional expertise could be leveraged for this
                  process, including the development of a communications working group
                  with State and/or regional responsibility for specific areas.

         3.2 	    With input and assistance from States and regions, define the guidance
                  necessary for States to manage their programs. Guidance should include
                  checklists and best practices for each mechanism. Guidance could be
                  developed in a workgroup environment using State and regional resources,
                  and could use products already developed and in use by some States.

         3.3 	    EPA should develop mechanisms to ensure adequate oversight of State
                  programs by EPA regions.

         3.4 	    EPA should continue providing financial assurance training and explore
                  mechanisms to facilitate State participation. This could include offering
                  training in conjunction with conferences for which State travel costs may
                  be covered, providing additional travel funds for States, and offering
                  training to specific States.

Agency Comment and OIG Evaluation
                 EPA generally agreed with our recommendations. EPA indicated it will
                 implement an information sharing mechanism available to both regions and
                 States. EPA also indicated it will develop guidance, initiate oversight, and
                 provide training. We consider EPA’s actions to be appropriate. The
                 Agency’s full response to the recommendations is in Appendix A.


                                         12

                                 Chapter 4
               Several Indicators Show Need for
               Financial Assurance Modifications
          States have expressed concerns with aspects of the financial test and other
          financial assurance mechanisms. Some State laws allow States to implement
          financial assurance requirements more restrictive than EPA’s by excluding certain
          mechanisms and modifying the requirements of others, while other States have
          chosen not to adopt more stringent standards. As EPA states in its June 2004
          regulatory agenda, without a rulemaking (on the financial test), the improvement
          in the test would not be implemented in States that have chosen not to adopt
          standards more stringent than Federal standards. At EPA’s request, the EPA
          Environmental Financial Advisory Board (EFAB) is reviewing several aspects of
          RCRA Subtitle C financial assurance and is developing recommendations.

EPA Has Plans and is Acting to Address Issues
          In its June 2004 regulatory agenda, EPA planned a public notice in 2004 (notice
          of data availability) and a final rule in 2006 addressing RCRA Subtitle C financial
          test requirements. However, in 2004, the Office of Solid Waste placed its
          financial assurance rulemaking on hold as it posed several questions to the EFAB.
          Chartered in 1989 under the Federal Advisory Committee Act, the purpose of
          EFAB is to provide analysis and advice to EPA on financial issues. EFAB’s
          membership includes prominent experts from the finance and banking
          community, industry, national organizations, and all levels of government.
          Issues EPA asked EFAB to address included:

          •	   Improvements to the financial test and corporate guarantee.
          •	   Guidance on insurance, including captive insurance.
          •	   Methods to improve cost estimates.
          •	   Applicability of financial assurance to entities not currently covered by RCRA
               financial assurance requirements.

          In March 2005, EFAB drafted a letter proposing changes in the financial test. 

          In the recommendations, EFAB defined criteria for an adequate test and then 

          measured the adequacy of the existing financial test against those criteria. 

          While the need for EFAB’s review is supported by our own review, the lack of 

          milestones for EFAB’s completion and EPA’s action on EFAB recommendations 

          remains an obstacle to implementation of improvements. 


          The Office of Enforcement and Compliance Assurance recently identified 

          financial assurance as a priority and demonstrated leadership on the issue. Recent 




                                         13

                 financial assurance activities of the Office of Enforcement and Compliance
                 Assurance have included:

                 •	 Taking primary responsibility for the development and implementation of
                    financial assurance training.
                 •	 Actively participating in development of new financial assurance data
                    elements to be incorporated into RCRAInfo.
                 •	 Developing pilot State programs to analyze the effectiveness of States’
                    existing financial assurance mechanisms.
                 •	 Formally identifying financial assurance as a priority in the 2006 National
                    Program Managers’ Guidance.

                 The Office of Enforcement and Compliance Assurance is also currently
                 performing an analysis of some financial test submittals. This analysis includes
                 reviewing the submittals and, where appropriate, a review of data required under
                 the Sarbanes-Oxley Act2 or other publicly available information. The Office has
                 found weaknesses in the evidence being used to support a company’s eligibility
                 criteria for the financial test. Some companies have junk bond status or received
                 an adverse auditor’s opinion citing material weaknesses regarding compliance
                 with the Sarbanes-Oxley Act.

States Have Taken Actions to Implement Additional Restrictions
                 Twenty-six States have implemented additional provisions that are more
                 restrictive than the RCRA regulations. These restrictions include:

                 •	 Exclusion of captive insurance - Thirteen States do not accept captive
                    insurance as a financial assurance mechanism.
                 •	 Reduced pay-in period for trust funds - Fourteen States require a shorter
                    period for fully-funding a trust than specified in the RCRA regulations, with
                    some States requiring full funding up front.
                 •	 Limitations on financial test and corporate guarantee - Ten States have
                    additional restrictions on the financial test and corporate guarantee.

                 States and regions support the revision of national financial assurance standards
                 through a formal rulemaking process. This is especially true for those States
                 whose statutes prevent them from being more stringent than RCRA and who must
                 abide by current regulatory requirements. EPA clearly states in its June 2004
                 regulatory agenda that without a rulemaking (on the financial test), the
                 improvement in the test would not be implemented in States that cannot have
                 regulations more stringent than Federal standards.



2
 The Sarbanes-Oxley Act of 2002 includes provisions addressing audits, financial reporting and disclosure,
conflicts of interest, and corporate governance at public companies.


                                                     14

States Expressed Concerns with Financial Test and Other
Mechanisms

          Financial Test Lacks Transparency and is Not Current with Standards

          States and regions expressed specific concerns with documentation requirements
          for the RCRA Subtitle C financial test:

          •	 Letter from the chief financial officer - Federal regulation requires a letter
             from the chief financial officer outlining the company’s financial test
             performance. The chief financial officer letter must list all company facilities
             and their closure/post-closure cost estimates that are covered under the
             financial test. Because State regulators cannot easily verify the completeness
             of this list, especially for those corporations with facilities in multiple States
             and regions, regulators cannot preempt problems arising from incomplete
             chief financial officer letters that do not calculate all liabilities into the
             financial test.
          •	 Opinion of the certified public accountant - The financial test requires a
             report stating the opinion of a certified public accountant on a company’s
             audited financial statement's conformance with generally accepted accounting
             principles. RCRA Subtitle C financial assurance regulations can accept the
             financial test on a less stringent opinion than those that certify conformance
             with generally accepted accounting principles.
          •	 Special report of the certified public accountant - The Subtitle C financial
             assurance regulations require an attestation of negative assurance from a
             certified public accountant that “no matters came to his attention which
             caused him to believe that the specified data should be adjusted.” This is in
             conflict with existing accounting standards. For Subtitle C financial tests,
             EPA issued a guidance letter in response to the changes in the professional
             auditing standards suggesting alternatives and stating that, “The Agency
             intends to change the regulations so that they conform to the new professional
             auditing standards.”

          Captive Insurance Viewed as High Risk by States and Regions

          Captive insurance is defined as insurance issued by a wholly-owned subsidiary of
          the company being insured. The financial health of the captive insurance
          company is closely tied with the parent company, so if the company encounters
          financial difficulties there is no guarantee that the captive insurance company
          would retain the necessary resources to fund closure and post-closure. This
          concern was expressed in our 2001 report and the ASTSWMO paper. Although
          we found no specific instances of financial assurance failure associated with
          captive insurance, States and regions remain concerned because there is no




                                         15

independence of risk between the corporate parent and the company insured.
Table 4.1, based upon our interviews and a recent report of the U.S. Government
Accountability Office,
shows the relative cost and       Table 4.1 - Regulatory Risk versus Facility Cost
risk for the various                  MECHANISM                   RISK             COST
                                     Letter of Credit              Low               High
mechanisms from the                     Trust Fund                 Low               High
perspective of the                       Insurance              Medium            Medium
regulator. In this table,              Surety Bond            Medium Low Medium High
“risk” refers to the risk of         Financial Test               High               Low
funds for closure and post-     Corporate Guarantee               High               Low
closure being unavailable         Captive    Insurance         Very  High        Very   Low
to the regulator; “cost”       Sources:    OIG Analysis and GAO-05-658 Report “Environmental
                               Liabilities: EPA Should Do More to Ensure That Liable Parties
refers to the relative cost to Meet Their Cleanup Obligations”
the facility. States and
regions interviewed consider captive insurance to be the highest risk, and almost
universally oppose the concept.

Development of Corrective Action Regulations Supported

Due to the lack of explicit corrective action regulations, EPA provided guidance
in 2003 addressing financial assurance at corrective action facilities. In this
guidance, EPA acknowledges a potential problem if financial assurance is not
required until a remedy has been selected. With few exceptions, States and
regions interviewed expressed the opinion that the financial assurance component
of the corrective action should be addressed through development of explicit
regulations, including the ability to require financial assurance prior to remedy
selection.

Need for Financial Assurance Beyond 30 Years Unresolved

States and regions interviewed expressed concern with the potential need for post-
closure financial assurance beyond the required 30 years for land-based units
closed with waste in place. Although current regulations require post-closure
financial assurance for land-based RCRA permitted units closed with waste in
place for 30 years, regulators may extend the post-closure period at any time
during or before the post-closure period, to protect human health and the
environment. In our 2001 report, we found that most State agencies interviewed
had not developed a policy or process to determine whether post-closure care
should be extended. We had made a recommendation to develop criteria to
establish appropriate post-closure care time frames, and while the Agency agreed
with the recommendation it has not implemented it.

We believe this issue needs to be considered further. Some facilities are
approaching the latter half of their 30-year post-closure period, and there is
increased risk of a facility becoming insolvent with time. For example, a landfill
in post-closure since 1989 followed the appropriate RCRA financial assurance



                                  16

         regulations and received an appropriate level of oversight by State regulatory
         staff. However, in 2004, the company notified the State that it could no longer
         care for the landfill, forcing State regulators to take emergency action and assume
         control of the landfill. This supports the need for EPA to develop plans for
         funding of post-closure beyond 30 years.

Industry Representatives Believe Mechanisms Adequate
         Industry representatives generally considered the financial assurance mechanisms
         to be adequate, at least for large companies. Some industry representatives
         expressed the opinion that regulatory agencies should pay more attention to
         smaller companies, because the larger ones will more likely have resources to
         fund closure and post-closure.

Conclusions
         States and regions have expressed concerns about the existing RCRA Subtitle C
         financial assurance regulations, especially in recent years. These concerns range
         from general issues with financial assurance mechanisms to specific requirements
         at odds with generally accepted accounting principles. Some States have
         implemented State-level financial assurance requirements more stringent than the
         Federal requirements. Other States cannot implement financial assurance
         requirements more stringent than Federal requirements, and therefore may only
         obtain relief from financial assurance problems through new Federal rules.

Recommendation
         We recommend that the Deputy Assistant Administrator for Solid Waste and
         Emergency Response:

         4.1 	   Develop and communicate EPA’s plan for addressing concerns with the
                 existing financial assurance regulations, including captive insurance, the
                 financial test, expansion of financial assurance beyond TSDFs, corrective
                 action, and post-closure coverage beyond 30 years. The plan should
                 include milestones, decision points, and timelines for taking action, and
                 indicate when and how EPA will determine if a rulemaking is necessary.

Agency Comment and OIG Evaluation
         EPA agreed that a plan should be developed to address concerns with the existing
         financial assurance regulations. However, EPA believes this plan should be
         developed after completion of the Superfund 120 Day Study and after further
         progress by EFAB. We agree that a detailed plan should be developed after
         completion of the Superfund 120 Day Study and further progress by EFAB.
         However, EPA should develop and communicate an estimated timeframe for the
         completion of these tasks. The Agency’s full response to the recommendation is
         in Appendix A.


                                        17

                                                                                    Appendix A

                  Agency Response to Draft Report


August 30, 2005

MEMORANDUM

SUBJECT: Comments on Draft Evaluation Report:
         Continued EPA Leadership Will Support State Needs for Information and Guidance
         on RCRA Financial Assurance
         Assignment No. 2004-001336

FROM: 	 Thomas P. Dunne/s/
        Acting Assistant Administrator

TO:    	    Ms. Carolyn Cooper
            Director for Program Evaluation
            Hazardous Waste Issues
            Office of Program Evaluation
            Office of Inspector General

   Thank you for the opportunity to comment on the draft report. Your office investigated an
important aspect of our program on which we have focused as well. Your August 1, 2005 memo
requested that I comment on the factual accuracy of the draft report and indicate concurrence
with each finding and proposed recommendation.

   I have attached our comments on the draft report as well as our response to your
recommendations, with which we largely agree. Generally, however, we are pleased to learn
that, while your office identified several concerns that need to be addressed, you found very few
actual instances of financial assurance problems in the course of your interviews with State and
regional personnel.

   We are also pleased to see the OIG endorses the plan to include financial assurance
information in RCRAInfo.

    If your staff has any questions on the comments, please contact Dale Ruhter (703) 308-8192
in the Office of Solid Waste.



Attachments:
I. EPA’s Response to OIG Draft Recommendations
II. Specific Comments (not included in this report)


                                              18

   Attachment I. 

   EPA’s Response to OIG Draft Recommendations 


Recommendation 2.1 

Incorporate the planned modifications to RCRAInfo to improve financial assurance data 

collected at the national level, and require a clear definition of outputs and features of the system

prior to final definition of the required data elements. This could include such additional planned 

actions as tickler reports and improved financial assurance provider links. 

EPA Response: 

We generally agree. The EPA-State Executive Steering Committee for the RCRA data system

(RCRAInfo) has formally accepted the data changes identified by the EPA-State Permitting-

Corrective Action workgroup, and these changes will be incorporated in the next upgrade to 

RCRAInfo. As EPA develops the program design changes necessary to track the new data 

elements related to financial assurance, we and the States will carefully consider the IG 

recommendations related to data links, reports, and similar items. For this early in system

development, we are not prepared to reach final conclusions on the specific enhancements 

suggested by the IG; see our specific comments in Attachment II. 


Recommendation 3.1 

Establish effective mechanisms of communication with State and regional financial assurance 

staff. This should include development and maintenance of master lists of financial assurance 

contacts, as well as implementation of an automated mechanism for information sharing and 

communication. State and regional expertise could be leveraged for this process, including the 

development of a communications working group with State and/or regional responsibility for 

specific areas. 

EPA Response: 

We generally agree. EPA will implement an information sharing mechanism through 

QuickPlace for financial assurance. We will make this system available to both regional and 

State financial assurance experts. EPA will maintain a list of regional financial assurance 

contacts. With respect to State contacts, the currency of the list will depend largely upon the 

States updating them. For the sake of continuity, some States may choose to use management 

personnel as the contact persons. We will also explore with States the feasibility of maintaining 

a communications working group, and we will continue to hold our regular conference calls with 

the States. 


Recommendation 3.2 

With input and assistance from States and regions, define the guidance necessary for States to 

manage their programs. Guidance should include checklists and best practices for each

mechanism. Guidance could be developed in a workgroup environment using State and regional 

resources, and could use products already developed and in use by some States. 


EPA Response: 

EPA agrees that appropriate guidance needs to be developed, based on input and assistance from

the States and regions. We will work closely with the States in identifying priority areas. The 

timing of developing such guidance will depend on the resources that are available. 





                                               19

Recommendation 3.3
EPA should develop mechanisms to ensure adequate oversight of State programs by EPA
regions.
EPA Response:
EPA agrees. OSWER will request that regions incorporate financial assurance into routine state
oversight activities. OECA has developed guidance, the State Review Framework, which is
being used by OECA and Regions to review state enforcement and compliance assurance
programs. It describes how EPA will evaluate the enforcement and compliance assurance
components of authorized or approved environmental programs implemented by the States. The
scope of the review will include activities and outcomes related to compliance monitoring,
inspections, and civil enforcement, as well as assistance and innovative programs.

Recommendation 3.4
EPA should continue providing financial assurance training and explore mechanisms to facilitate
State participation. This could include offering training in conjunction with conferences from
which State travel costs may be covered, providing additional travel funds for States, and
offering training to specific States.
EPA Response:
EPA continues to provide financial assurance training on the mechanisms, and explore
mechanisms to facilitate State participation. For example, we have provided over the past
several months mini-training courses on the financial mechanisms in several States and regions.
This training has been well-received and we plan to continue this type of training as funding
permits. Financial assurance experts from the States typically do not attend conferences from
which State travel costs may be covered. However, we continue to look for opportunities to
provide financial assurance training, which may, depending on the type of audience at the
conference, facilitate another opportunity to provide specific training regarding financial
mechanisms or other training with regard to financial assurance.

Chapter 4, Recommendation 4.1
Develop and communicate EPA’s plan for addressing concerns with the existing financial
assurance regulations, including captive insurance, the financial test, expansion of financial
assurance beyond TSDFs, corrective action, and post-closure coverage beyond 30 years. The
plan should include milestones, decision points, and timelines for taking action, and indicate
when and how EPA will determine if a rulemaking is necessary.
EPA Response:
EPA agrees that a plan for addressing any concerns identified should be developed, but believes
that we need to complete the analyses being conducted as a result of the Superfund 120 Day
Study and be further along in the EFAB process before answering the questions of whether rule
changes are needed and if so, what they are. Once this assessment is completed, we would
expect to put together a plan for addressing the appropriate concerns.




                                             20

                                                                               Appendix B

                                   Distribution

Office of the Administrator
Deputy Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Solid Waste
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Liaison, Office of Solid Waste and Emergency Response
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                          21

